APPENDIX A

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page1 of 28

17‐2233
Prime International Trading Ltd., et al., v. BP PLC, et al.

United States Court of Appeals
for the Second Circuit
AUGUST TERM 2018

No. 17‐2233
PRIME INTERNATIONAL TRADING, LTD., WHITE OAKS FUND LP, KEVIN
MCDONNELL, ANTHONY INSINGA, ROBERT MICHIELS, JOHN DEVIVO, NEIL TAYLOR,
AARON SCHINDLER, PORT 22, LLC, ATLANTIC TRADING USA, LLC, AND XAVIER
LAURENS,
Plaintiffs‐Appellants,
v.
BP P.L.C., TRAFIGURA BEHEER B.V., TRAFIGURA AG, PHIBRO TRADING L.L.C., VITOL
S.A., MERCURIA ENERGY TRADING S.A., HESS ENERGY TRADING COMPANY, LLC,
STATOIL US HOLDINGS INC., SHELL TRADING US COMPANY, BP AMERICA, INC.,
VITOL, INC., BP CORPORATION NORTH AMERICA, INC., MERCURIA ENERGY
TRADING, INC., MORGAN STANLEY CAPITAL GROUP INC., PHIBRO COMMODITIES
LTD., SHELL INTERNATIONAL TRADING AND SHIPPING COMPANY LIMITED, STATOIL
ASA, AND ROYAL DUTCH SHELL PLC,
Defendants‐Appellees.+

_________________________________
+

The Clerk of Court is respectfully directed to amend the official caption as listed above.

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page2 of 28

ARGUED: DECEMBER 10, 2018
DECIDED: AUGUST 29, 2019
Before:

JACOBS, SULLIVAN, Circuit Judges, and KORMAN, District Judge

Appeal from a judgment of the United States District Court for the Southern
District of New York (Carter, J.,) dismissing Plaintiffs‐Appellants’ claims for lack
of personal jurisdiction as to Defendant‐Appellee Shell International Trading and
Shipping Company Limited, for lack of jurisdiction under the Foreign Sovereign
Immunities Act as to Defendant‐Appellee Statoil ASA, and for failure to state a
claim as to all claims. Plaintiffs‐Appellants argue that the district court erred in
concluding that their claims under the Commodity Exchange Act were
impermissibly extraterritorial. Plaintiffs‐Appellants also contend that the district
court erred in dismissing their Sherman Act claims, in concluding that the court
lacked personal jurisdiction over Defendant‐Appellee Shell International Trading
and Shipping Company Limited, and in dismissing claims against Defendant‐
Appellee Statoil ASA under the Foreign Sovereign Immunities Act. We disagree.
Accordingly, we AFFIRM the district court’s dismissal of Plaintiffs‐Appellants’
Commodity Exchange Act claims in this opinion, and AFFIRM the dismissal as to
all other Defendants‐Appellees and all other claims in a separately filed summary
order.
DAVID E. KOVEL (Andrew M. McNeela on the
brief), Kirby McInerney LLP, New York, NY,
for Plaintiffs‐Appellants.
RICHARD C. PEPPERMAN (Daryl Libow,
Amanda Davidoff, Austin L. Raynor on the
brief), Sullivan & Cromwell LLP, New York,
NY for Defendants‐Appellees BP PLC, BP
America, Inc. and BP Corporation North
America, Inc.



Judge Edward R. Korman, of the United States District Court for the Eastern District of
New York, sitting by designation.

2

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page3 of 28

DAVID B. SALMONS (Steven A. Reed, R.
Brenda Fee, Michael E. Kenneally, on the
brief) Morgan, Lewis & Bockius LLP,
Philadelphia, PA for Defendant‐Appellee Shell
International Trading and Shipping Company
Limited.
PERRY A. LANGE (David S. Lesser on the brief)
Wilmer Cutler Pickering Hale and Dorr
LLP, Washington, DC for Defendant‐Appellee
Statoil ASA.

RICHARD J. SULLIVAN, Circuit Judge:
This appeal requires us to decide whether alleged misconduct tied to the
trading of crude oil extracted from Europe’s North Sea constitutes an
impermissibly extraterritorial application of the Commodity Exchange Act. For
the reasons set forth below, we find that it does, and therefore affirm the dismissal
of Plaintiffs‐Appellants’ claims.
I. BACKGROUND
Plaintiffs‐Appellants (“Plaintiffs”)1 are individuals and entities who traded
futures and derivatives contracts pegged to North Sea oil – also known as Brent
crude – on the Intercontinental Exchange Futures Europe (“ICE Futures Europe”)

Plaintiffs‐Appellants are: Prime International Trading, Ltd., White Oaks Fund LP, Kevin
McDonnell, Anthony Insinga, Robert Michiels, John Devivo, Neil Taylor, Aaron Schindler, Port
22, LLC, Atlantic Trading USA, LLC, and Xavier Laurens.
1

3

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page4 of 28

and the New York Mercantile Exchange (“NYMEX”) between 2002 and 2015 (the
“Class Period”).
Defendants‐Appellees (“Defendants”)2 are a diverse group of entities
involved in various aspects of the production of Brent crude. In addition to
producing, refining, and distributing Brent crude, Defendants also purchase and
sell Brent crude on the physical market and trade Brent‐crude‐based futures
contracts on global derivatives markets.
A. Brent Crude Physical Market
Brent crude is extracted from the North Sea of Europe, and refers to oil
pulled from four fields in the region:

Brent, Forties, Oseberg, and Ekofisk

(collectively, “BFOE”). The price of Brent crude serves as the benchmark for two‐
thirds of the world’s internationally‐traded crude.
Following extraction, Brent crude is delivered via pipeline to ports in
Europe where it is loaded onto ships for delivery. These physical cargoes are
bought and sold through private, over‐the‐counter (“OTC”) transactions between

Defendants‐Appellees are: BP p.l.c., Trafigura Beheer B.V., Trafigura AG, Phibro Trading
L.L.C., Vitol S.A., Mercuria Energy Trading S.A., Hess Energy Trading Company, LLC, Statoil US
Holdings Inc., Shell Trading US Company, BP America, Inc., Vitol, Inc., BP Corporation North
America, Inc., Mercuria Energy Trading, Inc., Morgan Stanley Capital Group Inc., Phibro
Commodities Ltd., Shell International Trading and Shipping Company Limited (“STASCO”),
Statoil ASA (“Statoil”), and Royal Dutch Shell Plc.
2

4

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page5 of 28

producers, refiners, and traders. Because these physical transactions are private
and do not occur on an open exchange, the price of Brent crude is not immediately
available to the public. Instead, price‐reporting agencies collect information about
transactions from market participants and report it to the consuming public.
B. Platts and the Dated Brent Assessment
Platts is a prominent London‐based price‐reporting agency that collects
information from market participants regarding their physical Brent crude
transactions, analyzes that data to compute benchmark prices, and publishes those
prices in real‐time price reports as well as various end‐of‐day price assessments.
The price reports track several different submarkets in the Brent crude market, but
the “primary pricing benchmark”—widely regarded as the “spot” price for Brent
crude – is the “Dated Brent Assessment.”
The Dated Brent Assessment tracks physical cargoes of North Sea crude oil
that have been assigned specific delivery dates. Rather than averaging the prices
of the four grades of Brent crude, the Dated Brent Assessment is based on the
lowest price among the four grades, and is calculated each day during the
assessment period. Platts uses a Market‐on‐Close (“MOC”) methodology, under
which Platts tracks all Brent crude trading activity during the day, but weighs

5

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page6 of 28

most heavily the bids, offers, and transactions that occur at the end of each trading
day, from 4:00 to 4:30 P.M. GMT.
Although Platts relies on market participants to voluntarily self‐report their
private transactions in order to create and publish the Dated Brent Assessment,
they do not just mechanically recite the reported trade activity. Instead, Platts
exercises its own discretion to accept or reject transactional data, and makes this
assessment based on the reliability, accuracy, and consistency of such data. At the
end of the day, Platts’ goal in publishing the Dated Brent Assessment is to
accurately reflect market prices and to avoid distortion or artificiality.3
C. Brent Futures Market
Plaintiffs focus their claims on Brent‐related futures and derivatives
contracts (“Brent Futures”), which are primarily traded on two exchanges:
NYMEX and ICE Futures Europe. NYMEX is a U.S.‐based commodity futures
exchange, while ICE Futures Europe is a London‐based exchange. Plaintiffs and
other market participants trade on both exchanges. The most heavily traded Brent
Futures contract is the “ICE Brent Futures Contract,” which has a corollary

Indeed, according to its website, Platts “makes every effort to detect anomalous market
behaviors and act swiftly to ensure these do not undermine the integrity of its assessments.” JA
735.
3

6

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page7 of 28

contract on the NYMEX. These contracts stop trading, or “expire,” approximately
two weeks before the delivery month. If a futures contract is not offset before it
expires, the contract is cash‐settled.

In other words, the in‐the‐money

counterparty receives the cash value of the contract rather than the underlying
asset itself.
Brent Futures traded on ICE Futures Europe (“ICE Brent Futures”) are cash‐
settled based on an established benchmark known as the ICE Brent Index. Brent
Futures traded on the NYMEX, in turn, settle at expiration to the price of ICE Brent
Futures. Unlike the Dated Brent Assessment – which Platts calculates based on
prices for the least expensive BFOE grade of Brent cargoes – the ICE Brent Index
is calculated based on the entire BFOE market of physical Brent cargoes. In
addition, the ICE Brent Index incorporates an average of certain designated price‐
reporting assessments, one of which, Plaintiffs allege, is the Dated Brent
Assessment.
Beyond this incorporation, Plaintiffs provide several other points of support
for their claim of a “direct[] link” between Brent Futures settlement prices and the
Dated Brent Assessment. Specifically, they contend that the “ICE Brent Futures
Contracts prices rarely deviate from the Dated Brent Assessment by more than 1%

7

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page8 of 28

at expiration,” and that “changes in the Dated Brent Assessment directly impact[]
Brent Futures prices.”
D. The Alleged Manipulation
Plaintiffs allege that Defendants conspired to manipulate, and did in fact
manipulate, the market for physical Brent crude and Brent Futures by executing
fraudulent bids, offers, and transactions in the underlying physical Brent crude
market over the course of the Class Period. Defendants allegedly conducted these
trades during the MOC window and then systematically reported the artificial
transactions to Platts with the intention of manipulating the Dated Brent
Assessment. According the Plaintiffs, Defendants’ aim in doing so was “to benefit
their physical Brent and Brent Futures positions,” while the consequent
manipulation of Brent Futures prices caused Plaintiffs to suffer economic loss
because they transacted in Brent Futures during this time.
Plaintiffs’ claim involves a causal chain that can be summarized as follows:
Defendants engaged in artificial trades of physical Brent crude in foreign markets;
Defendants systematically reported the artificial trade data to Platts; Platts
reviewed and incorporated the fraudulent data into its calculation of the Dated
Brent Assessment; ICE Futures Europe in turn incorporated the manipulated

8

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page9 of 28

Dated Brent Assessment into the ICE Brent Index; the manipulated ICE Brent
Index was used to settle Brent Futures that were traded on both the London‐based
ICE Futures Europe and the U.S.‐based NYMEX; as a result, Brent Futures traded
and settled at artificial prices, causing economic loss to traders such as Plaintiffs.
Plaintiffs – as they acknowledge – “do not allege a single overarching
conspiracy among all Defendants for the full Class Period,” nor do they allege that
the physical Brent crude market was monopolized by all Defendants
simultaneously. Moreover, Plaintiffs do not assert that Defendants engaged in any
manipulative trading on NYMEX or ICE Futures Europe. Rather, Plaintiffs limit
the focus of their claim to Defendants’ foreign physical market transactions,
arguing that these transactions initiated a chain of events that caused ripple effects
across global commodities markets.
B. Procedural History
In 2013, Plaintiffs filed various independent cases against Defendants.
Those cases were consolidated and transferred to the Southern District of New
York (Carter, J.) in October 2013. Defendants filed an Amended Complaint on July
3, 2014, and filed a Second Amended Complaint (“SAC”) on February 27, 2015. In
the SAC, Plaintiffs asserted claims under (1) Sections 6(c)(1) and 9(a)(2) of the

9

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page10 of 28

Commodity Exchange Act (“CEA”), 7 U.S.C. §§ 9(1)(a), 13(a)(2), including
derivative claims for respondeat superior and for aiding and abetting, see 7 U.S.C. §§
2(a)(1)(B), 25(a)(1)4; (2) Sections 1 and 2 of the Sherman Act, 15 U.S.C. §§ 1, 2; and
(3) the common law for unjust enrichment. On July 28, 2014, Defendants Statoil
and STASCO individually filed motions to dismiss based, respectively, on lack of
subject matter jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1) and
lack of personal jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(2).
That same day, all Defendants moved to dismiss all claims made in the SAC
pursuant to Federal Rule of Civil Procedure 12(b)(6).
The district court granted Statoil’s motion to dismiss for lack of subject
matter jurisdiction under the Foreign Sovereign Immunities Act, and granted
STATSCO’s motion to dismiss for lack of personal jurisdiction. Additionally, the
district court granted the remaining Defendants’ joint motion to dismiss all the
claims in the SAC on the grounds that (1) Plaintiffs did not allege antitrust
standing on their Sherman Act claims, and (2) their claims under the CEA were
impermissibly extraterritorial. Plaintiffs filed a timely notice of appeal.5

Section 22 of the CEA, 7 U.S.C. § 25, gives Plaintiffs a private right of action to sue for these
violations.
5 In this opinion, we only address Plaintiffs’ appeal of the dismissal of their CEA claims. We
separately address the dismissal of Plaintiffs’ Sherman Act claims, as well as the dismissal of
4

10

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page11 of 28

II. STANDARD OF REVIEW AND JURISDICTION
“We review de novo the grant of a motion to dismiss for failure to state a
claim upon which relief can be granted under Federal Rule of Civil Procedure
12(b)(6).” Harris v. Mills, 572 F.3d 66, 71 (2d Cir. 2009). We have jurisdiction under
28 U.S.C. § 1291.
III. DISCUSSION
The CEA is a “remedial statute that serves the crucial purpose of protecting
the innocent individual investor—who may know little about the intricacies and
complexities of the commodities market—from being misled or deceived.”
Commodity Futures Trading Commʹn v. R.J. Fitzgerald & Co., 310 F.3d 1321, 1329 (11th
Cir. 2002). This case implicates two antifraud provisions of the CEA. Section
6(c)(1) of the CEA makes it “unlawful for any person . . . to use or employ, . . . in
connection with any swap, or a contract of sale of any commodity, . . . any
manipulative or deceptive device.” 7 U.S.C. § 9(a)(1). Additionally, Section 9(a)(2)
proscribes “manipulat[ing] or attempt[ing] to manipulate the price of any
commodity in interstate commerce.” 7 U.S.C. § 13(a)(2). Plaintiffs seek to enforce
these substantive provisions of the CEA through the Act’s private right of action,

Statoil and STASCO on other grounds, in a summary order issued simultaneously with this
opinion. Plaintiffs do not appeal the dismissal of their unjust enrichment claim.

11

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page12 of 28

which permits a party to bring suit against a person whose violation of the CEA
“result[s] from one or more of the transactions” listed in the statute. See 7 U.S.C. §
25(a)(1).

At bottom, this case centers on our interpretation of the CEA –

specifically, whether it permits suit against Defendants for alleged manipulative
conduct that transpired in Europe.
We interpret the CEA in light of the presumption against extraterritoriality,
a canon of statutory interpretation that is a “basic premise of our legal system.”
RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090, 2100 (2016); see also United States
v. Palmer, 3 Wheat. 610, 631 (1818) (Marshall, C.J.) (“[G]eneral words must . . . be
limited to cases within the jurisdiction of the state”); Antonin Scalia & Bryan
Garner, Reading Law: The Interpretation of Legal Texts 268 (2012). “Absent clearly
expressed congressional intent to the contrary,” federal laws must be “construed
to have only domestic application.” RJR Nabisco, 136 S. Ct. at 2100. This reflects
the “commonsense notion that Congress generally legislates with domestic
concerns in mind,” Smith v. United States, 507 U.S. 197, 204 n.5 (1993), and acts to
“protect against unintended clashes between our laws and those of other nations
which could result in international discord,” EEOC v. Arabian Am. Oil Co., 499 U.S.
244, 248 (1991).

12

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page13 of 28

Generally, courts engage in a “two‐step framework for analyzing
extraterritoriality issues.” RJR Nabisco, 136 S. Ct. at 2101. First, because there must
be an “affirmative intention of the Congress clearly expressed” to give a statute
extraterritorial effect, Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247, 255 (2010)
(quoting Arabian Am. Oil, 499 U.S. at 248), courts look to the text of the statute to
discern whether there is a “clear indication of extraterritoriality,” id. at 265; see also
WesternGeco LLC v. ION Geophysical Corp., 138 S. Ct. 2129, 2136 (2018). If the statute
lacks such a “clear statement” of extraterritorial effect, the statute does not apply
abroad. Morrison, 561 U.S. at 265.
However, a claim may still survive if it properly states a “domestic
application” of the statute. See id. at 266. As it is “a rare case . . . that lacks all
contact with the territory of the United States,” id. (emphasis in original), many
cases present a mixed bag of both domestic and foreign components. Accordingly,
at the second step, courts must evaluate whether the domestic activity pleaded is
the “focus of congressional concern.” Id. In other words, because the presumption
against extraterritoriality would be a “craven watchdog indeed” if it “retreated to
its kennel whenever some domestic activity is involved,” id. (emphasis in original),

13

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page14 of 28

courts must evaluate whether the domestic activity involved implicates the
“focus” of the statute.
Therefore, we first assess the text of each of the three provisions implicated
by this suit – the two substantive regulations, Sections 6(c)(1) and 9(a)(2), and the
private right of action, Section 22 – to determine if any of them contains a “clear
indication of extraterritoriality.” Morrison, 561 U.S.A at 265; see RJR Nabisco, 136 S.
Ct. at 2106–2111 (evaluating extraterritorial application of RICO’s private right of
action provision separately from substantive RICO provisions).
A. Affirmative Intention to Apply Extraterritorially
As to whether Congress intended Section 22 to apply to conduct abroad,
circuit precedent provides the answer. In Loginovskaya v. Batratchenko, we held that
since Section 22 of the CEA “is silent as to extraterritorial reach,” suits funneled
through this private right of action “must be based on transactions occurring in
the territory of the United States.” 764 F.3d 266, 271, 272 (2d Cir. 2014).6
The same is also true of Sections 6(c)(1) and 9(a)(2). Specifically, Section
6(c)(1) proscribes “us[ing] or employ[ing], . . . in connection with any swap, or a

While the Dodd‐Frank Wall Street Reform and Consumer Protection Act amended the CEA to
apply extraterritorially to certain swap‐related activities, see 7 U.S.C.A. § 2(i), that amendment
does not affect our analysis here for reasons separately explained below.
6

14

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page15 of 28

contract of sale of any commodity, . . . any manipulative or deceptive device.” 7
U.S.C. § 9. Thus, on its face, Section 6(c)(1) – like Section 22 – “lacks . . . a clear
statement of extraterritorial effect.” Morrison, 561 U.S. at 265. Section 9(a)(2),
which prohibits “manipulat[ing] or attempt[ing] to manipulate the price of any
commodity in interstate commerce,” 7 U.S.C. § 13, likewise contains no
affirmative, textual indication that it applies to conduct abroad. By contrast, as the
Supreme Court noted in Morrison, other provisions in the securities laws, such as
15 U.S.C. § 78dd(a), “contain[] what [Sections 6(c)(1) and 9(a)(2)] lack[ ]: a clear
statement of extraterritorial effect.” Morrison, 561 U.S. at 265.
Plaintiffs make a last‐ditch effort to establish that extraterritorial application
of the CEA is proper by resorting to a separate provision – Section 2(i). Enacted
pursuant to the Dodd‐Frank Wall Street Reform and Consumer Protection Act,
Pub. L. No. 111‐203, 124 Stat. 1376 (2010), Section 2(i) of the CEA states:
The provisions of this Act relating to swaps . . . shall not apply to
activities outside the United States unless those activities – (1) have a
direct and significant connection with activities in, or effect on,
commerce of the United States; or (2) contravene such rules or
regulations as the Commission may prescribe . . . to prevent the
evasion of any provision of this Act.
7 U.S.C.A. § 2(i). Unlike Sections 6(c)(1) and 9(a)(2), Section 2(i) contains, on its
face, a “clear statement,” Morrison, 561 U.S. at 265, of extraterritorial application.
15

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page16 of 28

If there were any lingering doubts about whether Sections 6(c)(1) and 9(a)(2)
independently apply extraterritorially, Section 2(i) forecloses those doubts,
because it shows that Congress “knows how to give a statute explicit
extraterritorial effect . . . and how to limit that effect to particular applications”
within the CEA. Morrison, 561 U.S. at 265 n.8. Therefore, the existence of an
enumerated extraterritorial command in Section 2(i) reinforces our conclusion that
the lack of any analogous directive in either Section 6(c)(1) or Section 9(a)(2) bars
their extraterritorial application here.
As for Plaintiffs’ contention that Section 2(i) applies extraterritorially here
because there is a “direct and significant connection” to the United States, even a
charitable reading of the docket reveals that Plaintiffs neglected to raise this
argument until after the district court rendered its final judgment.

Indeed,

Plaintiffs did not even mention this argument in their opposition to Defendants’
motion to dismiss. See Doc. No. 148 (“CFTC Amicus Br.”) at 4 (“The Commission
takes no position on whether or how Section 2(i) may apply here. That was not
litigated below . . . .”). We have found an argument to be waived for purposes of
appellate review where a litigant “failed to make any such argument in opposition
to the defendants’ motion.” Askins v. Doe No. 1, 727 F.3d 248, 252 (2d Cir. 2013).

16

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page17 of 28

Hence, Plaintiffs have waived the argument that Section 2(i) sustains claims
encompassing “swap‐related” Brent transactions. See Morrison, 561 U.S. at 254
(reiterating that a question regarding the extraterritorial reach of a federal statute
presents a “merits question,” not a question of subject‐matter jurisdiction).7
B. Domestic Application of Sections 22, 6(c)(1), and 9(a)(2)
Plaintiffs urge that even if the relevant provisions of the CEA do not apply
extraterritorially, the district court erred because the SAC alleges a proper
“domestic application of the statute.” RJR Nabisco, 136 S. Ct. at 2101 (“If the statute
is not extraterritorial, then at the second step we determine whether the case
involves a domestic application of the statute.”).
Whether Plaintiffs’ claims constitute a satisfactory domestic application of
the CEA requires us to discern the “focus of congressional concern” in enacting
the statute. Morrison, 561 U.S. at 266. To divine the CEA’s “focus,” we consider
the “conduct” that the statute “seeks to regulate,” as well as “the parties and

Even if we considered the applicability of Section 2(i), our conclusion would not change. The
most recent acts of the alleged manipulation described by Plaintiffs occurred in September 2012,
before Section 2(i) became effective, and the provision is silent as to retroactive application. Bowen
v. Georgetown Univ. Hosp., 488 U.S. 204, 208 (1988) (“[C]ongressional enactments and
administrative rules will not be construed to have retroactive effect unless their language requires
this result.”).
7

17

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page18 of 28

interests it seeks to protect or vindicate.” WesternGeco, 138 S. Ct. at 2137 (quoting
Morrison, 561 U.S. at 267). Our inquiry is guided by the statute’s text, see Morrison,
561 U.S. at 266–69, as well as how the “statutory provision at issue works in
tandem with other provisions,” WesternGeco, 138 S. Ct. at 2137.
Importantly, we must discern the “focus” of each provision individually, for
even if Plaintiffs satisfactorily pleaded a domestic application for one of the
conduct‐regulating provisions – i.e., Sections 6(c)(1) and 9(a)(2) – they must also
do the same for the CEA’s private right of action provision, Section 22. See
Loginovskaya, 764 F.3d at 272; see also RJR Nabisco, 136 S. Ct. at 2106 (“[W]e
separately apply the presumption against extraterritoriality to RICO’s [private]
cause of action.”). Because Plaintiffs’ suit “must satisfy the threshold requirement
of CEA § 22 before reaching the merits of [their] § [6(c)(1) and 9(a)(2)] fraud
claim[s],” Loginovskaya, 764 F.3d at 272, we start by assessing whether Plaintiffs
have pleaded a proper domestic application of Section 22.
1. Section 22
In Loginovskaya, we held that the focus of congressional concern in Section
22 is “clearly transactional,” given its emphasis on “domestic conduct [and]
domestic transactions.” Id. Thus, in order for Plaintiffs to state a proper domestic

18

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page19 of 28

application of Section 22, the suit “must be based on transactions occurring in the
territory of the United States.”

The “domestic transaction test” essentially

“decides the territorial reach of [Section] 22.”8 Id.
To assess whether Plaintiffs pleaded permissibly domestic transactions
under Section 22, typically we would apply a test first announced in Absolute
Activist Value Master Fund Ltd. v. Ficeto, 677 F.3d 60 (2d Cir. 2012). However,
following the course we have taken in securities cases, see Parkcentral Global Hub
Ltd. v. Porsche Automobile Holdings SE, 763 F.3d 198, 216 (2d Cir. 2014), we need not
decide definitively whether Plaintiffs’ transactions satisfy Absolute Activist, for (as
discussed below) their claims are impermissibly extraterritorial even if the
transactions are domestic. Thus, we assume without deciding that Plaintiffs’
trades on NYMEX and ICE Futures Europe constituted “domestic transactions”
under Section 22.
In Parkcentral, investors in equity swaps pegged to the price of Volkswagen
stock sued under Section 10(b), alleging that defendants made misleading

In evaluating whether Plaintiffs’ claims fit within the “focus” of Section 22, we must assess the
“conduct relevant to the statute’s focus.” WesternGeco, 138 S. Ct. at 2137 (emphasis added) (quoting
RJR Nabisco, 136 S. Ct. at 2101). Defendants do not dispute that the “relevant conduct” under
Section 22 is the purchase and sale of Brent Futures. As such, for the purposes of our Section 22
analysis, we take those commodities transactions to be the relevant conduct.

8

19

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page20 of 28

statements that sought to hide their intentions to take over Volkswagen. 763 F.3d
at 201–02. All of defendants’ misconduct occurred in Germany, and Volkswagen
stock only traded on European stock exchanges.

Id.

We assumed without

deciding that the equity swaps at issue there were “domestic transactions” under
Section 10(b), but nonetheless dismissed the claims because the facts in that case
rendered the suit “predominately foreign.” Id. at 216.

The predicate to our

conclusion in Parkcentral was the maxim that “a domestic transaction or listing is
necessary” but “not alone sufficient” to state a claim under Section 10(b). Id. at 215–
16 (emphasis in original). The question this case presents is whether Parkcentral’s
rule carries over to the CEA. We hold that it does.
For starters, Section 22 creates no freestanding, substantive legal obligations;
instead, it requires the “commission of a violation of this chapter.” 7 U.S.C. §
25(a)(1); see Doc. No. 242 (“Chamber of Commerce et al. Amicus Br.”) at 20. And
as already discussed above, the conduct‐regulating provisions of the CEA –
particularly those at issue here – apply only to domestic conduct, and not to foreign
conduct. See supra Section III.A. Put differently, while a domestic transaction is
necessary to invoke Section 22, it is not sufficient, for a plaintiff must also allege a
domestic violation of one of the CEA’s substantive provisions. So Parkcentral’s

20

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page21 of 28

insight – that a domestic securities transaction is necessary but not sufficient to
state a claim under Section 10(b), see Parkcentral, 763 F.3d at 214 – is required by
the text and structure of Section 22. To hold otherwise would be to divorce the
private right afforded in Section 22 from the requirement of a domestic violation
of a substantive provision of the CEA. See WesternGeco, 138 S. Ct. at 2137 (“If the
statutory provision at issue works in tandem with other provisions, it must be
assessed in concert with those other provisions. Otherwise, it would be impossible
to accurately determine whether the application of the statute in the case is a
‘domestic application.’” (quoting RJR Nabisco, 136 S. Ct. at 2017)); see also Chamber
of Commerce et al. Amicus Br. at 20–21. To state a proper claim under Section 22
in this case, Plaintiffs must allege not only a domestic transaction, but also
domestic – not extraterritorial – conduct by Defendants that is violative of a
substantive provision of the CEA, such as Section 6(c)(1) or Section 9(a)(2). See
WesternGeco, 138 S. Ct. at 2137–38 (looking to “the type of infringement that
occurred” in analyzing whether litigant stated a domestic application of the
damages remedy provision of the Patent Act, and concluding that it did because
“[t]he conduct in this case that is relevant to th[e] [statute’s] focus clearly occurred
in the United States”).

21

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page22 of 28

Besides the structure of the CEA and the language of Section 22, the
presumption against extraterritoriality also counsels in favor of extending
Parkcentral’s holding to the instant case. Permitting a suit to go forward any time
a domestic transaction is pleaded would turn the presumption against
extraterritoriality into a “craven watchdog,” Morrison, 561 U.S. at 266, and would
fly in the face of the Supreme Court’s clear guidance that the presumption against
extraterritoriality cannot evaporate any time “some domestic activity is involved
in the case,” id. (emphasis in original). As Morrison notes, the mere fact that a
domestic transaction – i.e., “some” domestic activity – is involved is insufficient to
rebut the presumption against extraterritoriality in light of the fact that “[f]oreign
conduct is generally the domain of foreign law,” Microsoft Corp. v. AT&T Corp., 550
U.S. 437, 455 (2007). Parkcentral recognized this very concern, reasoning that “a
rule making [Section 10(b)] applicable whenever the plaintiff’s suit is predicated
on a domestic transaction,” regardless of the “foreignness of the facts,” would
trample on Morrison by requiring us to apply the statute to “wholly foreign
activity,” Parkcentral, 763 F.3d at 215. In addition, potential “unintended clashes
between our laws and those of other nations . . . could result in international
discord,” Arabian Am. Oil, 499 U.S. at 248, if we “adopt an interpretation of U.S.

22

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page23 of 28

law that carries foreign policy consequences not clearly intended by the political
branches,” Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108, 116 (2013) (quoting
Benz v. Compania Naviera Hidalgo, S.A., 353 U.S. 138, 147 (1957)). Given that courts
“have looked to the securities laws” when asked “to interpret similar provisions
of the CEA,” Loginovskaya, 764 F.3d at 272, we do not hesitate in applying
Parkcentral’s gloss on domestic transactions under Section 10(b) to domestic
transactions under Section 22 of the CEA. Therefore, while a domestic transaction
as defined by Absolute Activist is “necessary” to invoke the private remedy
afforded by Section 22, it is not “sufficient.”
In order to close the gap between “necessary” and “sufficient,” Plaintiffs’
claims must not be “so predominately foreign as to be impermissibly
extraterritorial.” Parkcentral, 763 F.3d at 216. Here, the facts are remarkably similar
to those in Parkcentral, and therefore leave little doubt that Plaintiffs’ claims are
“predominately foreign.”
In both cases, plaintiffs traded derivatives – in Parkcentral, equity swaps, and
here, futures contracts – which, by their nature, are pegged to the value of another
asset. Both underlying assets were foreign: Parkcentral involved the price of
Volkswagen stock traded on European stock exchanges, and here Plaintiffs’

23

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page24 of 28

transactions were based on the Dated Brent Assessment, which itself reflects, in
part, the value of Brent crude physically traded in Northern Europe. The alleged
misconduct in both instances was also entirely foreign. Indeed, Parkcentral’s facts
are perhaps less predominantly foreign than those alleged here, since the
misleading statements at issue in Parkcentral were “accessible in the United States
and were repeated here by the defendants,” Parkcentral, 763 F.3d at 201, whereas
Plaintiffs in this case make no claim that any manipulative oil trading occurred in
the United States. Moreover, in Parkcentral, the equity swaps traded in the United
States were “directly tied to the price of Volkswagen’s shares on foreign
exchanges.” Here, Plaintiffs rely on an even more attenuated “ripple effects”
theory whereby (1) the alleged manipulative trading activity taking place in the
North Sea (2) affected Brent crude prices – a foreign commodity – which (3)
affected a foreign benchmark, the Dated Brent Assessment, which (4) was then
disseminated by a foreign price‐reporting agency, which (5) was then allegedly
used (in part) to price futures contracts traded on exchanges around the world.
Nearly every link in Plaintiffs’ chain of wrongdoing is entirely foreign – in contrast
to Parkcentral, where the alleged wrongdoing occurred on American shores at the
second causal step, not the fifth. And yet even in Parkcentral, we deemed the

24

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page25 of 28

conduct to be “so predominantly foreign” as to render the claims impermissibly
extraterritorial. Parkcentral, 763 F.3d at 216. The same conclusion is warranted
here. Therefore, we conclude that Plaintiffs have failed to plead a proper domestic
application of Section 22 of the CEA.
2. Sections 6(c)(1) and 9(a)(2)
Although “[Plaintiffs’] suit must satisfy the threshold requirement of CEA
Section 22 before reaching the merits of [their] Section [6(c)(1) and 9(a)(2)] fraud
claim,” Loginovskaya, 764 F.3d at 272, Plaintiffs have, in any event, also failed to
plead a proper domestic application of either Section 6(c)(1) or 9(a)(2).
Section 6(c)(1), in relevant part, makes it “unlawful for any person, directly
or indirectly, to use or employ . . . in connection with any swap, or a contract of
sale of any commodity in interstate commerce, or for future delivery on or subject
to the rules of any registered entity, any manipulative or deceptive device or
contrivance.” 7 U.S.C. § 9(a)(1). Plaintiffs urge this Court to ignore the plain text
of the statute and suggest that the focus of this Section is the locus of the
transaction. Plaintiffs point to Morrison, where the Supreme Court held that
Section 10(b), which contains similar language, focused “not upon the place where
the deception originated, but upon purchases and sales of securities in the United

25

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page26 of 28

States.” Morrison, 561 U.S. at 266. But the language of Section 6(c)(1) crucially
differs from Section 10(b), as the latter prohibits “us[ing] or employ[ing], in
connection with the purchase or sale of any security registered on a national
securities exchange or any security not so registered[,] . . . any manipulative or
deceptive device,” 15 U.S.C. § 78j, while Section 6(c)(1) contains no mention of a
“national securities exchange.” Thus, there is no great significance in this case to
Morrison’s determination that Section 10(b) focused specifically on “deceptive
conduct ‘in connection with the purchase or sale of any security registered on a
national securities exchange or any security not so registered.’” Morrison, 561 U.S.
at 266 (quoting 15 U.S.C. § 78j). There is nothing in Section 6(c)(1)’s text suggesting
that it is focused on “purchases and sales of securities in the United States,”
Morrison, 561 U.S. at 266, and other available evidence in the CEA, such as that
statute’s statement of purpose, suggests that the focus is on rooting out
manipulation and ensuring market integrity – not on the geographical coordinates
of the transaction. See 7 U.S.C. § 5 (“[I]t is further the purpose of this chapter to
deter and prevent price manipulation or any other disruptions to market integrity
. . . to ensure the financial integrity of all transactions subject to this chapter.”); see
also Antonin Scalia & Bryan Garner, Reading Law: The Interpretation of Legal Texts 33

26

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page27 of 28

(2012) (noting that a statute’s enumerated statement of purpose is relevant when
interpreting a text).

Therefore, we discern that Section 6(c)(1) centers on

manipulation in commodities markets. All of the conduct relevant to that focus
occurred abroad – Defendants are alleged to have manipulated the physical Brent
crude market near Europe’s North Sea by engaging in fraud there. And if “the
relevant conduct occurred in another country, ‘then the case involves an
impermissible extraterritorial application regardless of any other conduct that
occurred in U.S. territory.’” WesternGeco, 138 S. Ct. at 2137 (quoting RJR Nabisco,
136 S. Ct. at 2101). As a result, Plaintiffs have failed to plead a proper domestic
application of Section 6(c)(1).
Plaintiffs have also failed to plead a domestic application of Section 9(a)(2).
That Section proscribes “manipulat[ing] or attempt[ing] to manipulate the price of
any commodity in interstate commerce.” 7 U.S.C. § 13(a)(2). The focus of Section
9(a)(2) is preventing manipulation of the price of any commodity. And all of the
relevant conduct here relating to that focus occurred abroad – Plaintiffs contend
that Defendants sought to manipulate the price of Brent crude, and did so by
fraudulently transacting in the physical market in Europe. Plaintiffs make no
allegation of manipulative conduct or statements made in the United States. To

27

Case 17-2233, Document 252-1, 08/29/2019, 2643470, Page28 of 28

the contrary, they expressly rely on a “ripple effect” or chain of events that
resembles a falling row of dominoes commencing in the North Sea. Accordingly,
Plaintiffs fail to plead a proper domestic application of Section 9(a)(2) as well.9
IV. CONCLUSION
We do not lightly dismiss Plaintiffs’ troubling allegations against
Defendants, which include serious claims premised on manipulation, fraud, and
deceit. Nonetheless, “the sole function of the courts is to enforce [the CEA]
according to its terms,” not to reinvent it. Arlington Cent. Sch. Dist. Bd. of Educ. v.
Murphy, 548 U.S. 291, 296 (2006). The presumption against extraterritoriality
reflects the recognition that “[a]ll legislation is prima facie territorial.” Am. Banana
Co. v. United Fruit Co., 213 U.S. 347, 357 (1909) (Holmes, J.). That presumption has
not been displaced here, and Plaintiffs have not pleaded a domestic application of
the CEA by mere dint of the fact that – after a winding chain of foreign, intervening
events – they purchased Brent Futures on exchanges. Were we to hold otherwise,
the CEA would indeed “rule the world.” Microsoft, 550 U.S. at 454.
Accordingly, the judgment of the district court is AFFIRMED.

Because Plaintiffs have not pleaded a domestic application of either Section 6(c)(1) or 9(a)(2),
we need not decide whether Parkcentral applies to those sections.
9

28

APPENDIX B

Case 17-2233, Document 253, 08/29/2019, 2643477, Page1 of 12

17‐2233
Prime International Trading, Ltd., et al. v. BP PLC, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 29th day of August, two thousand nineteen.
PRESENT:
DENNIS JACOBS,
RICHARD J. SULLIVAN,
Circuit Judges
EDWARD R. KORMAN,
District Judge.
_____________________________________

PRIME INTERNATIONAL TRADING, LTD., WHITE OAKS FUND LP, KEVIN
MCDONNELL, ANTHONY INSINGA, ROBERT MICHIELS, JOHN DEVIVO, NEIL TAYLOR,
AARON SCHINDLER, PORT 22, LLC, ATLANTIC TRADING USA, LLC, AND XAVIER
LAURENS,
Plaintiffs‐Appellants,
v.


No. 17‐2233

Judge Edward R. Korman, of the United States District Court for the Eastern District of New
York, sitting by designation.

Case 17-2233, Document 253, 08/29/2019, 2643477, Page2 of 12

BP P.L.C., TRAFIGURA BEHEER B.V., TRAFIGURA AG, PHIBRO TRADING L.L.C., VITOL
S.A., MERCURIA ENERGY TRADING S.A., HESS ENERGY TRADING COMPANY, LLC,
STATOIL US HOLDINGS INC., SHELL TRADING US COMPANY, BP AMERICA, INC.,
VITOL, INC., BP CORPORATION NORTH AMERICA, INC., MERCURIA ENERGY
TRADING, INC., MORGAN STANLEY CAPITAL GROUP INC., PHIBRO COMMODITIES
LTD., SHELL INTERNATIONAL TRADING AND SHIPPING COMPANY LIMITED, STATOIL
ASA, AND ROYAL DUTCH SHELL PLC,
Defendants‐Appellees.+
_____________________________________

FOR APPELLANTS:

DAVID E. KOVEL (Andrew M. McNeela on the
brief), Kirby McInerney LLP, New York, NY, for
Plaintiffs‐Appellants.

FOR APPELLEES:

RICHARD C. PEPPERMAN (Daryl Libow, Amanda
Davidoff, Austin L. Raynor on the brief),
Sullivan & Cromwell LLP, New York, NY for
Defendants‐Appellees BP PLC, BP America, Inc.
and BP Corporation North America, Inc.
DAVID B. SALMONS (Steven A. Reed, R. Brenda
Fee, Michael E. Kenneally, on the brief) Morgan,
Lewis & Bockius LLP, Philadelphia, PA for
Defendant‐Appellee Shell International Trading
and Shipping Company Limited.
PERRY A. LANGE (David S. Lesser on the brief)
Wilmer Cutler Pickering Hale and Dorr LLP,
Washington, DC for Defendant‐Appellee Statoil
ASA.
_____________________________________

_________________________________
+

The Clerk of Court is respectfully directed to amend the official caption as listed above.

2

Case 17-2233, Document 253, 08/29/2019, 2643477, Page3 of 12

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court be and hereby is AFFIRMED.

Plaintiffs‐Appellants (“Plaintiffs”) appeal from a judgment of the United
States District Court for the Southern District of New York (Carter, J.,) dismissing
(1) Plaintiffs’ claims against Defendant‐Appellee Shell International Trading and
Shipping Company Limited (“STASCO”) for lack of personal jurisdiction, (2)
Plaintiffs’ claims against Defendant‐Appellee Statoil ASA (“Statoil”) for lack of
subject‐matter jurisdiction under the Foreign Sovereign Immunities Act (“FSIA”),
and

(3)

Plaintiffs’

remaining

claims

against

all

Defendants‐Appellees

(“Defendants”) for failure to state a claim. In this summary order, we affirm the
dismissal of all of Plaintiffs’ Sherman Act antitrust claims, as well as the dismissal
of Statoil for lack of subject‐matter jurisdiction, and STASCO for lack of personal
jurisdiction. We affirm the district court’s dismissal of Plaintiffs’ Commodity
Exchange Act claims in a separately filed opinion (“Opinion”).
For the purposes of this summary order, we rely on the facts set forth in the
Opinion, and repeat only those facts necessary to explain our decision here.
I. SHERMAN ACT CLAIMS

Plaintiffs allege that Defendants engaged in price fixing, monopolization,
and conspiracy to monopolize under the Sherman Act, 15 U.S.C. §§ 1, 2. The
3

Case 17-2233, Document 253, 08/29/2019, 2643477, Page4 of 12

district court dismissed Plaintiffs’ Sherman Act claims because they failed to
plausibly allege antitrust standing. We review dismissal of a claim pursuant to
Federal Rule of Civil Procedure 12(b)(6) de novo. See Harris v. Mills, 572 F.3d 66, 71
(2d Cir. 2009).
Section 4 of the Clayton Act provides:
[A]ny person who shall be injured in his business or property by
reason of anything forbidden in the antitrust laws may sue . . . in any
district court of the United States in the district in which the
defendant resides or is found or has an agent, without respect to the
amount in controversy, and shall recover threefold the damages by
him sustained, and the cost of suit, including a reasonable attorney’s
fee.
15 U.S.C. § 15(a). Section 4 has been construed to “require a showing of antitrust
injury.” Gelboim v. Bank of Am. Corp., 823 F.3d 759, 772 (2d Cir. 2016). Antitrust
injury is “the type [of injury] the antitrust laws were intended to prevent and that
flows from that which makes defendants’ acts unlawful.” Brunswick Corp. v. Pueblo
Bowl–O–Mat, Inc., 429 U.S. 477, 489 (1977). Typically, only “participants in the
defendants’ market” can show antitrust injury, In re Aluminum Warehousing
Antitrust Litig., 833 F.3d 151, 158 (2d Cir. 2016), but there is a narrow exception for
“parties whose injuries are ‘inextricably intertwined’ with the injuries of market
participants,” Am. Ad Mgmt., Inc. v. Gen. Tel. Co. of Cal., 190 F.3d 1051, 1057 n.5 (9th
Cir. 1999).
4

Case 17-2233, Document 253, 08/29/2019, 2643477, Page5 of 12

As is often the case with antitrust claims, the Court must first determine the
“relevant market” for purposes of assessing antitrust injury. See In re Aluminum
Warehousing Antitrust Litig., 833 F.3d at 159. As a general matter, the “relevant
market” is the market that is “directly restrained” by Defendants’ alleged
anticompetitive activity. See id. at 162. There are two such relevant markets here.
First, Plaintiffs allege that Defendants, as producers, refiners, and sellers of Brent
crude oil, manipulated the price of physical Brent crude traded in the North Sea
so as to increase Defendants’ profit margins in their oil businesses. Accordingly,
as the parties seem to agree, a “relevant market” for the purposes of this case must
be, at a minimum, the physical Brent crude market.

See In re Aluminum

Warehousing Antitrust Litig., 833 F.3d at 162 (identifying the warehouse storage
market as a relevant market because “[a]ll of th[e] conduct took place (if at all) in
[that] market”). Second, Plaintiffs also claim that Defendants manipulated the
price of Brent crude in order to affect the Dated Brent Assessment, which would
in turn boost Defendants’ profit on derivatives that were linked to, or otherwise
tracked, that assessment. As such, we agree with the district court that a second
relevant market is “the market for any derivative instrument that directly
incorporates Dated Brent as benchmark or pricing element.”

5

Case 17-2233, Document 253, 08/29/2019, 2643477, Page6 of 12

Plaintiffs do not suggest that they participated in the physical market for
Brent crude oil. Accordingly, the question before the Court is whether Plaintiffs
participated in the market for derivative instruments directly pegged to the Dated
Brent Assessment. See In re Aluminum Warehousing Antitrust Litig., 833 F.3d at 162.
Plaintiffs have not made this showing. As an initial matter, Plaintiffs acknowledge
that the operative pricing benchmark for Brent futures and derivative products is
the ICE Brent Index, not the Dated Brent Assessment. And Plaintiffs further
concede that the Dated Brent Assessment is not “express[ly] incorporat[ed]” into
the ICE Brent Index. Instead, Plaintiffs rest their theory of incorporation on the
fact that the Dated Brent Assessment “closely correlates” with the ICE Brent Index.
But Plaintiffs could not have suffered an antitrust injury if they dealt in products
that were not linked to the benchmark they complain of, for they would not be a
“participant in the very market that is directly restrained.” In re Aluminum
Warehousing Antitrust Litig., 833 F.3d at 161.

Their efforts to re‐write their

complaint – in order to show that the ICE Brent Index directly incorporates the
Dated Brent Assessment – does not save their claim. While Plaintiffs state in their
complaint, for example, that a “critical component of the Brent Index is the Platts
price,” J. App’x 1980, there is no allegation that the “Platts price” and “Dated Brent

6

Case 17-2233, Document 253, 08/29/2019, 2643477, Page7 of 12

Assessment” are synonymous – indeed, Platts publishes price reports across a
variety of energy submarkets. As to the few products that Plaintiffs say directly
incorporate the Dated Brent Assessment, such as the NYMEX Brent CFD, Plaintiffs
make no specific allegations that they bought or sold these particular contracts.
And a pleading that offers only “labels and conclusions” or “a formulaic recitation
of the elements of a cause of action” does not suffice. Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007). Thus, we affirm the district court’s dismissal of Plaintiffs’
Sherman Act claims on the ground that they have not adequately pleaded an
antitrust injury in the markets that Defendants allegedly directly restrained.
II. STATOIL AND THE FSIA
The district court concluded that it lacked subject‐matter jurisdiction over
Plaintiffs’ claims against Statoil – an oil and gas company primarily owned by the
Kingdom of Norway – because Plaintiffs failed to demonstrate that Statoil was
subject to the commercial‐activity exception under the FSIA. We review dismissal
for lack of subject‐matter jurisdiction under the FSIA de novo. See Robinson v.
Government of Malaysia, 269 F.3d 133, 138 (2d Cir. 2001).
“The FSIA provides the sole basis for obtaining jurisdiction over a foreign
state in federal court,” Anglo‐Iberia Underwriting Mgmt. v. P.T. Jamsostek, 600 F.3d

7

Case 17-2233, Document 253, 08/29/2019, 2643477, Page8 of 12

171, 175 (2d Cir. 2010), and, as such, a “foreign state is immune from federal court
jurisdiction unless a specific exception to the FSIA applies,” id.

The FSIA’s

commercial‐activity exception abrogates foreign sovereign immunity where:
[T]he action is based upon a commercial activity carried on in the
United States by the foreign state; or upon an act performed in the
United States in connection with a commercial activity of the foreign
state elsewhere; or upon an act outside the territory of the United
States in connection with a commercial activity of the foreign state
elsewhere and that act causes a direct effect in the United States.
28 U.S.C. § 1605. Because the Kingdom of Norway owns two‐thirds of Statoil,
Statoil is an “instrumentality of a foreign state” and thus subject to the FSIA. See
28 U.S.C. § 1603(b)(2). The district court determined that the relevant “commercial
activity” for purposes of evaluating this FSIA exception is the “allegedly
manipulative transactions and reporting that allegedly gave rise to manipulation
on NYMEX and ICE.”
We agree with the district court that the manipulative trading and price
reporting that occurred overseas is the applicable “commercial activity” here,
because such activity is the “‘but for’ cause of the judgments that are the ground
of this suit.” Kensington, 505 F.3d at 155. In other words, because the overseas
manipulation “serves as the basis for [P]laintiffs’ claims,” Garb v. Republic of Poland,

8

Case 17-2233, Document 253, 08/29/2019, 2643477, Page9 of 12

440 F.3d 579, 586 (2d Cir. 2006), that manipulation serves as the commercial
activity under the FSIA.
And we further agree with the district court that Statoil’s activities overseas
do not satisfy the FSIA’s commercial‐activity exception. To qualify as a “direct
effect in the United States,” the effect “[must] follow[] ‘as an immediate
consequence of the defendant’s activity.’” Republic of Argentina v. Weltover, Inc.,
504 U.S. 607, 618 (1992) (internal alterations omitted).

We have described

“immediate” to mean that there was no “intervening element” between the
“foreign state’s commercial activity and the effect.” Guirlando v. T.C. Ziraat Bankasi
A.S., 602 F.3d 69, 74 (2d Cir. 2010).
There is plainly no “direct effect” here. The “ripple effects” that Plaintiffs
complain of occurred “at the end of a long chain of causation.” Virtual Countries,
Inc. v. Republic of S. Africa, 300 F.3d 230, 237 (2d Cir. 2002). Statoil allegedly helped
to manipulate the price of Brent crude in Europe, which was then reported to
agencies such as Platts, whose price reports were then folded into the Dated Brent
Assessment, which assessment was then indirectly incorporated into a benchmark
index – the ICE Brent Index – which was then used to price derivative and futures
contract across the globe – contracts that Plaintiffs traded in. Even aside from the

9

Case 17-2233, Document 253, 08/29/2019, 2643477, Page10 of 12

“long chain” of causal inferences, Statoil’s “commercial activity” in Europe’s
North Sea was “mediated by numerous actions by third parties.” Virtual Countries,
Inc., 300 F.3d at 237. Indeed, it was both an attenuated causal link, as well as the
presence of independent intervening actors, that doomed plaintiffs’ claims in
Virtual Countries, Inc., where the principal claim was that a press release issued by
the Republic of South Africa discouraged third‐parties from doing business in the
United States. And like Virtual Countries, there are several layers of actors that
“intervened between” Statoil’s foreign, commercial activity and any direct effects
in the United States. That is, there were other traders in the physical Brent crude
market; there was Platts, which created and then disseminated price reports; and
there were the exchanges themselves, which contained multitudes of other traders
and settled contracts differently. Accordingly, “[t]his tangled causal web does not
provide the requisite immediacy to establish jurisdiction,” id. at 238, and we affirm
the district court’s dismissal of Statoil for lack of subject‐matter jurisdiction.
III. PERSONAL JURISDICTION AND STASCO
Finally, the district court dismissed Plaintiffs’ claims against STASCO
because it lacked personal jurisdiction over that entity. In order to establish
specific, personal jurisdiction, Plaintiffs must demonstrate that their claims against

10

Case 17-2233, Document 253, 08/29/2019, 2643477, Page11 of 12

STASCO “arise out of or relate to [STASCO’s] contacts” with the United States. 1
Goodyear Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915, 923–24 (2011).
STASCO is a limited company incorporated under the laws of England and
headquartered in London. Plaintiffs allegations against STASCO are limited to
their “manipulative physical trades in Brent crude oil” in Europe. Plaintiffs make
no allegations that STASCO manipulated markets in the United States or
conducted any physical Brent trades in the United States – indeed, “no part of
[STASCO’s] course of conduct” occurred in the United States. Walden v. Fiore, 571
U.S. 277, 288 (2014). Plaintiffs suggest that STASCO “aimed” the effects of its
European trading activities at the United States. Calder v. Jones, 465 U.S. 783, 789
(1984).

But Plaintiffs do not allege anything more than STASCO’s “mere

knowledge that United States citizens might be wronged,” which is plainly
insufficient to confer specific, personal jurisdiction. Waldman, 835 F.3d at 338. And
the idea that STASCO sought benefits in the United States from their conduct
abroad does not permit specific, personal jurisdiction either, because it is the “suit‐

We assume without deciding that the “minimum contacts” inquiry here surveys STASCO’s
contacts with the United States as a whole, as opposed to contacts with a particular state. See
Waldman v. Palestine Liberation Org., 835 F.3d 317, 329 (2d Cir. 2016). In any event, since Plaintiffs
fail to demonstrate a critical mass of minimal contacts between STASCO and the United States,
dismissal would be warranted even if we were to apply the narrower forum analysis.
1

11

Case 17-2233, Document 253, 08/29/2019, 2643477, Page12 of 12

related conduct” that is crucial – in other words, “the conduct that could have
subjected them to liability.” Id. at 335. All of that conduct occurred abroad.
Accordingly, we affirm the district court’s dismissal of STASCO.
IV. CONCLUSION
For the foregoing reasons, and for the reasons stated in the Opinion, we
AFFIRM the judgment of the district court.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

12

APPENDIX C

Case 17-2233, Document 272, 10/16/2019, 2680817, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
16th day of October, two thousand nineteen.
________________________________________
Prime International Trading, Ltd., White Oaks Fund LP, Kevin
McDonnell, Anthony Insinga, Robert Michiels, John Devivo, Neil
Taylor, Aaron Schindler, Port 22, LLC, Atlantic Trading USA, LLC,
and Xavier Laurens,
ORDER

PlaintiffsAppellants,

Docket No: 17-2233

v.
BP P.L.C., Trafigura Beheer B.V., Trafigura AG, Phibro Trading
L.L.C., Vitol S.A., Mercuria Energy Trading S.A., Hess Energy
Trading Company, LLC, Statoil US Holdings Inc., Shell Trading US
Company, BP America, Inc., Vitol, Inc., BP Corporation North
America, Inc., Mercuria Energy Trading, Inc., Morgan Stanley
Capital Group Inc., Phibro Commodities Ltd., Shell International
Trading And Shipping Company Limited, Statoil ASA, And Royal
Dutch Shell PLC,
DefendantsAppellees.
_______________________________________
Appellants, Prime International Trading, Ltd., White Oaks Fund LP, Kevin McDonnell,
Anthony Insinga, Robert Michiels, John Devivo, Neil Taylor, Aaron Schindler, Port 22, LLC,
Atlantic Trading USA, LLC, and Xavier Laurens, filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

